                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

 Case Number: A10030018                                                           Page 1 of 1


          We received an allegation that an NSF proposal contained plagiarized text and a
          figure. During our Inquiry, we reviewed that initial proposal as well as three of the
          PI's other NSF proposals and found additional copied text and figures , all
          apparently without appropriate attribution. The PI did not provide a satisfactory
          explanation, so we referred the matter to the grantee. The grantee conducted an
          Investigation and concluded the PI committed plagiarism intentionally. We
          concurred with the grantee's conclusion and recommended NSF take appropriate
          action. NSF made a finding and took several actions in response. Accordingly, this
          case is closed with no further action taken. Our report, NSF's decision, and this
          Closeout Memorandum constitute the documents for the case closeout.




NSF OIG Form 2 (I 1/02)
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
       DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear Dr.
       In 2008, you submitted a proposal to the National Science Foundation (''NSF") entitled,
                           -                                                             -
           As documented in the attached Investigative Report prepared·by NSF's Office of
Inspector General ("OIG"), this proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF . .. " 45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l{a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).
                                                                                                   Page2
             Your proposal contained verbatim and paraphrased text and a figure, copied from several
     source documents. By submitting a proposal to NSF that copied the ideas or words of another
     without adequate attribution, as described in the OIG Investigative Report, you misrepresented
     someone else's work as your own. Your conduct unquestionably constitutes plagiarism. I
     therefore conclude that your actions meet the definition of "research misconduct" set forth in
     NSF's regulations.

             Pursuant to NSF regulations, the Foundation must also determine whether to make a
     finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
     reviewing the Investigative Report, NSF has determine<} that, based on a preponderance of the
     evidence, your plagiarism was committed intentionally and constituted a significant departure
     from accepted practices of the relevant research community. I am, therefore, issuing a finding of
     research misconduct against you.

             NSF's regulations establish three categories of actions (Group I, II, and ill) that can be
     taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
     issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
     NSF; requiring that an institution or individual obtain special prior approval of particular
     activities from NSF; and requiring that an institutional representative certify as to the accuracy of
     reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
     Group II actions include award suspension or restrictions on designated activities or
     expenditures; requiring special reviews of requests for funding; and requiring correction to the
     research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
     awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
     or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3) .

             . In determining the severity of the sanction to impose for research misconduct, I have
     considered the seriousness of the misconduct, and our determination that it was committed
     intentionally. I have also considered the fact that your misconduct was part of a pattern, and had
     little impact on the research record, as well as other relevant circuinstances. 45 CFR § 689.3(b).

            After assessing the relevant facts and circumstances of this case, I am taking the
     following actions against you:

            (1) Until April30, 2014, you must provide certifications to the OIG that any proposal or
                report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
                fabricated material;

            (2) Until April30, 2014, you must obtain, and provide to the OIG, assurances from a
                responsible official of your employer that any proposal or report you submit to NSF as
                a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

            (3) Until April30, 2014, you are prohibited from serving as a reviewer, advisor, or
                consultant on NSF proposals; and




..
                                                                                             Page3
       (4) By April30. 2013, you must attend a training course in research ethics, with content
           including proper citation practices, and provide a certificate of attendance to the OIG
           that you have completed such a course.

       The certifications, assurances, and certificate of attendance should be submitted in writing
to OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.



Procedures Governing Appeals
       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become fmal.

       For your information, we are attaching a copy of the applicable regulations . . If you have
any questions about the foregoing, please call             Assistant General Counsel, at (703)
292-8060.



                                                      Sincerely,




                                                      Wanda Ward
                                                      Senior Advisor to the Director




Enclosures
   Investigative Report
- 45 C.F.R. Part 689
    National Science Foundation
    Office of Inspector General




                    Confidential
               Report of Investigation
              Case Number A10030018
                       16 December 20 11

                This Confidential Report of Investigation is provided to you
                                FOR OFFICIAL USE ONLJ::
It contains protected personal infonnation, the unauthorized disclosure of which may result in
personal criminal liability tmder the Ptivacy Act, 5 U.S.C. § 552a. This report may be fiuther
disclosed within NSF on~v to individuals who must have knowledge of its contents to
facilitate NSF' s assessment and resolution of this matter. This report may be disclosed
outside NSF only under the Freedom of Infonnation and Privacy Acts, 5 U.S.C. §§ 552 &
552a. Please take approptiate precautions handling this confidential report of investigation.

                                                                           NSF OIG Form 22b (12/ 10)
CONFIDENTIAL                                                                       CONFIDENTIAL



                                      Executive Summary
Allegation            Plagiarism.
OIG Inquiry We identified 4 NSF proposals containing approximately 100 lines of text, 3
figures, and 1 table copied from 10 source documents without proper citation. We referred the
matter to the Subject's home institution for investigation.
University Investigation       The University concluded the Subject committed research
misconduct when she intentionally plagiarized. The University will: require the Subject to
complete a course in the ethical conduct of science; require the Subject to withdraw all pending
grant applications from NSF and will prohibit the Subject from submitting proposals to NSF for
3 years; allow the Subject to submit proposals to other funding agencies under the supervision of
the Dean [redacted]      or his designee after a 1-year suspension; and prohibit the subject from
taking on additional graduate students and participating in graduate student committees. The
Subject is required to review the progress of her current graduate students with the Dean [r
             or his designee and it is up to the Dean's discretion as to whether the Subject c~
continue to mentor students.
OIG Assessment        We concurred with the University that the Subject committed research
                      misconduct, concluding:
                      The Act: The Subject plagiarized approximately 50 lines of text and
                      1 figure from 3 source documents into an NSF proposal.
                      Intent: The Subject acted intentionally.
                      Significant Departure: The Subject's plagiarism represents a significant
                      departure from accepted practices in the research community.
                      Pattern: We found an additional 50 lines of text and 2 figures plagiarized
                      from 6 source documents into 3 NSF proposals. The Subject's plagiarism
                      of text and figures into 4 proposals exhibits a pattern of plagiarism.
OIG Recommendations
                  •   Send a letter of reprimand to the Subject informing her that NSF has made
                      a finding of research misconduct.
                  •   Require the Subject to either attend a course in research ethics, with
                      content including proper citation practices, within 1 year, or to provide the
                      certification for the course the University is requiring her to take.
                  •   Prohibit the Subject from serving as a reviewer, advisor, or consultant on
                      an NSF proposal for 2 years.
                  •   Require the Subject to provide certifications for 2 years with every
                      submission to NSF that the submitted work is either entirely her own
                      writing or is properly cited.
                  •   Require the Subject to ensure her employer submits assurances for 2 years
                      that, to the best of his/her knowledge, the Subject's submitted work is
                      either entirely the Subject's own writing or is properly cited.
CONFIDENTL\L                                                                                       CONFIDENTlAL



                                                 OIG's Inquiry

        We reviewed an allegation that an NSF proposal 1 (Proposal 1) contained plagiarized text
and a figure. Our review of the Subject's proposal confirmed the presence of an uncited figure ,
                                                                     2
as well as I4 lines copied from 2 additional source documents, which were not citied in the
proposal references. The text following the figure references the source document, but neither
the figure nor its caption reference the figure ' s original source document. None of the copied
text was offset or distinguished in such a way as to enable a reader to differentiate the Subject' s
own text and citations from the copied text and citations.
        We reviewed three other proposals for additional evidence of plagiarism: Proposal 2, 3
            4                5
Proposal 3, and Proposal 4. All three ofthese proposals were declined, and the Subject was the
PI. Collectively, these 3 proposals had an additional 86 lines of text, 3 figures, and I table that
were not properly cited from 9 source documents. 6 Two of the source documents for Proposal 4
                                                                                                  7
were the same as those for Proposal I , and the uncited figure in the two proposals was the same.
As an indicator of copying, in some cases, the Subject used the same citations that were included
in the source document text, i.e., embedded references.
         We wrote to the Subject regarding the copied text, figures , and table, 8 and the Subject
responded 9 that she provided adequate references and gave examples of how she cited those
references in her proposals. She said "oversight and omission on [her] part" were responsible for
her failure to properly cite the questioned material, but she does not "claim that it is [her] work
                                                10
or try to take credit of others [sic] work."        One of the Subject' s justifications for using the
copied text and images without appropriately citing the source was that "[i]t is my understanding
                                                 11
that it can be used for academic purposes."         With regard to taking images off of the internet,
the Subject asserted, " I see this as a practice in an academic environment around me for making

1
  Tab l:[redactedl                                                                                       It was
submitted by[redacted]                 (the University) and lists [redacted]      (the Subject) as the PJ. The
proposal was declined. The Subject is an Associate Professor[redacted]                                    at the
University.
2
  Tab 2; the three source documents are two papers (Source Documents A and B), from which the text was copied,
and an online tutorial (Source Document C), from which the fi gure was copied.
3
  Tab 3;[redacted]
4
  Tab 5;[redacted]

5
     Tab 7; [redacted]
6
   Tabs 4, 6, and 8, contain the source documents for proposals 2-4, respectively. The nine source documents are six
papers (Source Documents D and E, H-J, and L), two internet articles (Source Documents F and G), and an online
tutorial (Source Document K).
7
  See Source Documents A and I compared to Proposals l and 4, respectively.
8
   Tab 9.
9
   Tab 10 contains the Subject's response with attachments. The attachments are four folders, one for each proposal,
with examples of how she believes the technical nature of the description constrains its expression. The documents
provided by the Subject did not elucidate any technical constraints of the copied material in the Subject's proposals.
10
    Tab 10, response, p.2.
II   Ibid. , p.3 .
CONFIDENTIAL                                                                           CONFIDENTIAL



presentations etc." 12 The Subject "agree[ d] with [our] observation and admit[ ted] three images
were downloaded from the web along with the description." 13 The Subject contended that the
table was not copied.
        The Subject explained that she "took the help of graduate students in preparing some
                                                              14
parts of the narrative and asked them to give the references." The Subject wrote:
                I am not sure how they chose to paraphrase the sentences. I could not contact
                students as they have graduated and are no longer with the university. However
                from the description it is evident that they are quoting the works of others. I
                should have been more careful in scrutinizing their narrative. 15
Nowhere does the Subject provide the names of these alleged graduate students; nor were the
graduate students listed as co-authors of the NSF froposals, as required by the Proposal and
Award Policies and Procedures Guide (PAPPG). 1 The Subject concluded her response by
apologizing for the omitted citations and stating that she would "be more careful in [the]
future ." 17
        We found the Subject's responses insufficient to dispel the allegation and determined
there was sufficient substance to proceed to an investigation. Thus, we referred the investigation
to the Subject's institution (the University). 18


                                                University Investigation

        The University provided us a transcript of a meeting with the Subject, the Investigation
                                                                                                  20
Committee's report, and the report appendices. 19 The Research Integrity Officer (RI0)
established a Board of Inquiry that came to "the unanimous decision ... that the allegations ha[ d]
merit and that there [was] sufficient evidence to warrant a formal investigation." 2 1 The RIO then
established an Investigation Committee to further assess the allegations, including the Subject's
other proposal submissions and her scholarly publications.
         In reviewing the 41 instances of plagiarism we identified, the Committee determined that
the allegedly copied table included in Proposal 4 was, in fact, not copied; the information in the
table is maintained on another university's 22 website and is used freely by others.


12
   Ibid., p.4.
13
   Tab 10, response, p.5.
14 Jd.

15
         Ibid., p.6.
16
         See NSF PAPPG, part 1, Chapter I, Section D .3.
17
         Tab 10, response, p.6 .
18
         Tab11.
19
         Tab 12.
20
         [redacted]
21
         Tab 12, Appendix A, p. 2.
2
    ;[     [redacted]
CONFIDENTIAL                                                                            CONFIDENTIAL



        In addition to reviewing the evidence we provided , the Committee reviewed the Subject' s
other works and identified a plagiarized image in one of the Subject's publications, four
instances of self-plagiarism, and one instance in which a third party plagiarized from the
Subject. 23 The Committee stated, "Although only a sampling of [the Subject' s] published works
were examined, the committee was unanimous in their conclusion that [the Subject] routinely
plagiarizes the work of others in her published research findings , in the same manner as her NSF
proposals. " 24
         The Subject told the Committee "(a) the practice [of copying others' work without
attribution] is widespread in her field; and (b) that the violation is not serious because she did not
steal anyone' s ideas." 25 The Subject acknowledged she " ... made some mistakes and errors in
referencing" and stated, "I also provided the references for these authors [of the source
documents] work in the reference section of the proposal." 26 The Committee rejected the
Subject' s first defense, stating:
             Either [the Subject' s] field has drifted outside the norms expected of scholars at
             this University and the broader scientific community, or else the claims are
             merely a desperate plea by someone who has over the years come to expect
             impunity for undetected plagiarism. 27
Likewise, the Committee rejected the Subject' s second defense reasoning that from a reader' s
point of view "[t]he presumption must be that a text is the product of the author' s own efforts,
except where clearly and explicitly identified as the work of another." 28 lt reasoned " [t]he
probability that such extensive duplication of published text could be inadvertent is vanishingly
small.     The ineluctable conclusion is that the pattern of copying without proper
acknowledgement of the sources was deliberate." 29
         The Committee unanimously concluded, based on a preponderance of evidence standard
that 1) the Subject committed plagiarism; 2) the Subject committed the plagiarism intentionally;
3) the plagiarism was a significant departure from accepted practices; and 4) there was a pattern
of plagiarism. The Committee recommended that the Subject: a) complete a course on
professional ethics and ethical conduct in science; b) write letters to the authors of the copied
source documents apologizing for her plagiarism; c) immediately withdraw all pending grant
applications and not submit proposals to any intramural or extramural funding agency for
3 years; and d) not mentor graduate students for 3 years, including having her graduate students
be reassigned and not serving on any graduate student committees.
        The University' s Adjudicator 30 agreed with the Committee' s recommendations, but made
the following modifications: i) the Subject does not need to write to the source authors if she

23
   Ibid., p.3 .
24 Id
25 Jd.

26 !d.

27   Jd.
28
     Ibid , p. 4.
29
     Ibid , p. 2.
3
    c[ [redacted]
CONFIDENTIAL                                                                                        CONFIDENTIAL



accepts the gravity of her actions; ii) while the Subject must withdraw all pending grant
applications and cannot submit proposals to NSF for 3 years, the Subject can submit proposals to
                                                                 31
other agencies under the supervision of the Dean [redacted]         or his designee after a 1-year
suspension; and, iii) the Subject can complete work with her current graduate students, at the
discretion of the Dean. 32
                                               OIG's Assessment

       We reviewed the University 's report for accuracy and completeness and concluded we
could use it in lieu of conducting our own investigation. We also concluded the University
followed reasonable procedures. Regarding specific content, we agreed with the University' s
assessment about the copied table and removed Source Document L from our consideration.
        NSF's Research Misconduct Regulation states that a finding of misconduct requires that:
(1) there be a significant departure from accepted practices of the relevant research community;
(2) the research misconduct be committed intentionally, knowingly, or recklessly; and (3) the
allegation be proven by a preponderance of the evidence. 33
                                                       The Act

        The Subject copied approximately 50 unique lines of text and 1 figure from 3 different
source documents into Proposal 4 (see Table 34 below). The NSF Proposal and Award Policies
and Procedures Guide is clear with regard to citation practices: "NSF expects strict adherence to
the rules of proper scholarship and attribution. The responsibility for proper attribution and
citation rests with authors of a proposal ; all parts of the proposal should be prepared with equal
care for this concem." 35 By failing to appropriately distinguish verbatim copied material from
her own original material, the Subject presented the work of others as her own and failed to give
appropriate credit to the actual authors. The Subject claimed that graduate students helped
prepare her proposals, but never provided their names; nor did the U niversity's investigation
reveal any additional details about these alleged co-authors of the proposa ls. Consequently, we
conclude that the Subject is solely responsible for the plagiarized material in the proposals.
                             Proposal        Total plagiarized           Total plagiarized
                                                   lines                      figures
                                 1                    14                           1
                                2                     19                          1
                                3                     24                           1
                                4                    50                           1

3T[redacted]
32
     Tab 13 .
33
     45 C.F.R . §689.2(c).
34
  The Table represents the total (non-unique) lines and fi gures in each proposal. As noted in the OIG Inquiry
section, there is a repeated use of sources and a figure, so the 100 lines and 3 figure s in the Act represent the non-
duplicative plagiarism .
35
     NSF PAPPG, Chapter I, Section D.3 .
CONFIDENTIAL                                                                        CONFIDENTIAL




        The Subject admitted she copied text and figures from the source documents into her
proposals. In her initial response to the allegation, the Subject claimed that she believed she
could use others' work as long as it was for academic purposes. Moreover, the Subject claimed
it was common to see others' images used in presentations. As described above, the University
concluded that the Subject acted intentionally. Given the Subject's perspective about copying
others' work together with the pattern of plagiarism, we agree with the University's assessment
that the Subject intentionally put unattributed material into her NSF proposals.
                                            Significant Departure

        Based on the evidence, the Subject's response, and the University's investigation, we
conclude, by a preponderance of evidence standard that the Subject intentionally copied
unattributed text and figures into her proposals without appropriately distinguishing this material
from her own work. In doing so, the Subject significantly departed from the accepted practices
of her research community, as determined by the University' s investigation and NSF OIG. A
major scientific publisher in the Subject's field states: "Plagiarism in any form is unacceptable
and is considered a serious breach of professional conduct." 36
       Accordingly, we conclude that the Subject intentionally plagiarized, and the plagiarism
was a significant departure; hence, the Subject committed research misconduct.

                                    OIG's Recommended Disposition

        In deciding what actions are appropriate when making a finding of research misconduct,
NSF must consider several factors. These factors include how serious the misconduct was; the
degree of intent; whether it was an isolated event or part of a pattern; its impact on the research
record; and other relevant circumstances. 37
                                                 Seriousness

        The University determined that the preponderance of evidence supports the conclusion
that the Subject acted intentionally when she plagiarized material into Proposals 1-4. Plagiarism
violates research integrity and is a significant departure from accepted practices in the research
community. We conclude the amount of plagiarized material is sufficiently serious to warrant a
finding of research misconduct.
                                               Degree oflntent

       As we noted above, the University concluded the Subject acted intentionally, which is a
culpable level of intent. The Subject received a significant amount of her post baccalaureate

36
   See the "A Plagiarism FAQ" on [redacted]                                     website. The Subject
has a paper [redacted]
                         published in the [redacted]                         journal.
37
   45 C.F.R. §689.3(b ).
CONFIDENTIAL                                                                        CONFIDENTIAL


education in the United States. 38 Moreover, the Subject served as both a thesis advisor for
graduate students and as both an ad hoc and panel merit reviewer of NSF proposals, roles that
require a high level of understanding of research ethics. We noted that the Subject has submitted
numerous papers to well-known professional journals. 39 These journals have clear policies
concerning plagiarism, 40 providing the subject ample opportunity to understand appropriate
conduct. Therefore, we conclude the Subject was aware of the requirement to cite and
distinguish others' work when using it verbatim. The Subject also knew that the material she
copied without attribution into the proposals was not hers. As noted above, the Subject' s
perspective toward the unattributed use of others' work led her to disregard her community
standards. Therefore, we consider the Subject's actions to be intentional.
                                                        Pattern

        During our inquiry, we examined Proposal 1, the proposal associated with the original
allegation, as well as three additional proposals submitted by the Subject: Proposals 2-4. We
identified plagiarism of text and figures in all four of these proposals. As indicated in the Table,
Proposal 4 contains the most plagiarism, which we consider the primary Act of plagiarism. We
consider Proposals 1-3 as evidence of a pattern of plagiarism and an aggravating factor.
Therefore, we conclude that the four proposals present distinct evidence of a pattern of
plagiarism.
                                          Impact on the Research Record

        The University reviewed the Subject' s publications and found that, after finding four
examples of self-plagiarism and one example of image plagiarism, the Subject's actions had a
significant impact on the research record. NSF OIG concluded that the impact of the research
misconduct in the proposals submitted to NSF was minor, as all the proposals were declined, and
NSF does not consider self-plagiarism as rising to the level of research misconduct.
                                                Subject's Response
                                          41
        In the Subject's response, she explained the circumstances behind some of the text the
Committee described as self-plagiarism. We clarified in the Impact section above that self-
plagiarism is not considered by NSF to be research misconduct. The Subject said she has begun
working with a colleague on the responsible conduct of research.


                                                Recommendations

        We recommend NSF take the following actions as final disposition of this case to protect
the interests of the Federal Government:



38
     The Subject earned her Masters and Ph.D. degrees [redacted]
39
     The societies that publish the journals include( red and [redact
40
   See, for example, the [red " A Plagiarism FAQ" on its web site.
41
   Tab 14.
CONFIDENTIAL                                                                                 CONFIDENTlAL



                 (1) Issue a letter of reprimand informing the Subject that NSF has made a finding of
                     researc h m1scon d uct agamst her; 42
                                   0
                                                   0




                 (2) Require the Subject to either attend a course in research ethics, with content including
                     proper citation practices, within 1 year, or to provide the certification for the course
                     the University is requiring her to take. 43
                 (3) Require the Subject to provide certifications for 2 years with every submission to
                     NSF that the submitted work is either entirely her own writing or is properly cited;44
                 (4) Require the Subject to ensure her employer submits assurances for 2 years that the
                     submitted work is either entirely the Subject's own writing or is properly cited. 45
                 (5) Prohibit the Subject from serving as a reviewer, advisor, or consultant on an NSF
                     proposal for 2 years. 46
The proof of course completion, certifications, and assurances should be sent to the Assistant
Inspector General for Investigations (AlGI) for retention in OIG's confidential file on this
matter.




42
     This is a Group I action (45 C.F.R. § 689.3(a)(l)(i)) .
43
     This   is   similar to a Group I Action (45 C.F.R. § 689.3(a)(l)).
44
     This   is   similar to a Group I action (45 C.F.R. § 689.3(a)(l )).
45
     This   is   similar to a Group I action (45 C.F.R. § 689.3(a)(l)).
46
     This   is   a Group III action (45 C.F.R. § 689.3(a)(3)(ii)).
